No. - - - - - - - - -

~upreme <!Court of tbe Wniteb ~tates

PETER F. GARY, an individual and Florida citizen; PINNACLE HOLDINGS
GROUP, LLC, a Florida limited liability company; PINNACLE ADVERTISING &
MARKETING GROUP, LLC, a Florida limited liability company; PINNACLE
ADVISORY MANAGEMENT, LLC, a Florida limited liability company; and
PINNACLE DIGITAL, LLC, a Florida limited liability company,

Petitioners,
V.

JTC HOLDINGS, LLC, a Colorado limited liability company,

Respondent.

AFFIDAVIT OF SERVICE
STATE OF COLORADO
COUNTY OF DENVER

)
:ss
)

I, Jeffrey A. Springer, being duly sworn according to law and being over the
age of 18, upon my oath depose and say that:
I and my law firm are Counsel of Record for Petitioners;
That on the 16th day of November 2020, I served the within Petition for Writ
of Certiorari in the above-captioned matter upon:
Patrick J. Hickey
MOYE WHITE LLP
16 Market Square, 6th Floor
1400 16th Street
Denver, CO 80202-1486
by depositing three copies of the same, addressed to each individual respectively, and
enclosed in a post-paid, properly addressed wrapper, in an official depository
maintained by the United States Postal Service, via U.S. Mail;

That on the same date as above, I sent to this Court forty copies and one
unbound copy of the within Petition for Writ of Certiorari and three hundred dollar
filing fee check through the United States Postal Service, via U.S. Mail, postage
prepaid;
That all parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 16, 2020

Sworn to and subscribed before me this 16th day of November 2020.

My Commission Expires:

3/t5/J..O~\

Signature of Notary Public
SANDRA RIDER
NOTARY PUBLIC
STATE OF COLORADO
NOTARY ID 20014006942
MY COMi\1lSSION EXPIRES 03/15/2021

